         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Hotline Report




       Revisions Needed to
       National Contingency Plan
       Based on Deepwater Horizon
       Oil Spill
       Report No. 11-P-0534

       August 25, 2011
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Todd Goldman
                                                   Mary Anne Strasser
                                                   Stephanie Wake
                                                   Susan Charen




Abbreviations

BFT	          Baffled Flask Test
CWA 	         Clean Water Act
EPA 	         U.S. Environmental Protection Agency
FOSC 	        Federal On-Scene Coordinator
NCP 	         National Oil and Hazardous Substances Pollution Contingency Plan,
              also known as the National Contingency Plan
NRT 	         National Response Team
OEM 	         Office of Emergency Management
OIG 	         Office of Inspector General
OPA 	         Oil Pollution Act
ORD 	         Office of Research and Development
OSC 	         On-Scene Coordinator
OSWER 	       Office of Solid Waste and Emergency Response
RRT 	         Regional Response Team
SFT	          Swirling Flask Test
USCG 	        U.S. Coast Guard


Cover photo: An overhead view of the Deepwater Horizon oil spill. (U.S. Coast Guard photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                              11-P-0534
                                                                                                      August 25, 2011
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review             Revisions Needed to National Contingency Plan
The U.S. Environmental
                                   Based on Deepwater Horizon Oil Spill
Protection Agency (EPA),
Office of Inspector General         What We Found
(OIG), received two Hotline
                                   EPA and the manufacturer of Corexit completed required steps to include Corexit
complaints on the use of
                                   products on the NCP Product Schedule. However, EPA has not updated the NCP
dispersants in response to the
                                   since 1994 to include the most appropriate efficacy testing protocol. Subpart J of
Deepwater Horizon oil spill in
                                   the NCP identifies requirements a manufacturer must meet to include a product on
the Gulf of Mexico. We
                                   the Product Schedule, including efficacy results using the Swirling Flask Test.
reviewed the steps EPA took
                                   EPA has considered revising Subpart J to change efficacy testing procedures to the
to analyze the dispersant
                                   more reproducible Baffled Flask Test. However, EPA had not finalized the
Corexit for inclusion on the
                                   rulemaking before the Deepwater Horizon oil spill occurred because of competing
National Contingency Plan
                                   priorities and changes in management. If EPA had updated Subpart J, more
(NCP) Product Schedule. We
                                   reliable efficacy data may have been available during the oil spill.
also determined EPA’s role in
the decision to use Corexit in
                                   Responders to the Deepwater Horizon oil spill could have used other dispersants,
the response. The OIG Office
                                   but not within the applicable window of time designated by Addendum 2 to a
of Counsel addressed a perjury
                                   directive issued by EPA and the Coast Guard. EPA’s involvement in the response
allegation in one complaint.
                                   included issuing Joint Directives to BP, making operational decisions, and
                                   conducting additional dispersant testing. EPA involved senior officials in the
Background
                                   response because (a) the Agency was not prepared for the unprecedented volume
The NCP establishes national       and duration of dispersant use and subsea application, and (b) additional clarity
response capability and            was needed on roles and responsibilities in responding to a Spill of National
coordination for oil spills. The   Significance. The involvement of senior EPA officials created confusion as to who
NCP Product Schedule lists         at EPA led response efforts for dispersant use.
spill-mitigating chemicals that
responders can use in carrying     The OIG Office of Counsel did not find evidence supporting the perjury
out the NCP, including             allegation.
dispersants that emulsify,
disperse, or solubilize oil into   We noted that EPA took proactive actions to make health and environmental data
the water column.                  available on the Agency’s website throughout the spill response. Also, EPA
                                   demonstrated proactive efforts to improve emergency response plans.

                                    What We Recommend
For further information,
contact our Office of              We recommend that the Office of Solid Waste and Emergency Response establish
Congressional, Public Affairs,     policies to review and update contingency plans incorporating lessons learned
and Management at                  during the Deepwater Horizon oil spill, and clarify roles and responsibilities for
(202) 566-2391.                    Spills of National Significance. We also recommend that the office take steps to
                                   revise Subpart J to incorporate the most appropriate efficacy testing protocol and
The full report is at:
www.epa.gov/oig/reports/2011/      capture dispersant information. We recommend that the Office of Research and
20110825-11-P-0534.pdf             Development develop a research plan on long-term health and environmental
                                   effects of dispersants. The Agency generally agreed with our recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL



                                         August 25, 2011

MEMORANDUM

SUBJECT:	              Revisions Needed to National Contingency Plan Based on
                       Deepwater Horizon Oil Spill
                       Report No. 11-P-0534


FROM:	                 Arthur A. Elkins, Jr.
                       Inspector General

TO:                    Mathy Stanislaus
                       Assistant Administrator for Solid Waste and Emergency Response

                       Paul Anastas
                       Assistant Administrator for Research and Development


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe problems
we identified and corrective actions we recommend. This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. EPA managers will make final
determinations on matters in this report in accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $277,478.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed-upon
actions, including milestone dates. We will post your response on the OIG’s public website,
along with our memorandum commenting on your response. Please provide your response as an
Adobe PDF file that complies with the accessibility requirements of Section 508 of the
Rehabilitation Act of 1973, as amended. The final response should not contain data that you do
not want released to the public; if your response contains such data, you should identify the data
for redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or Heist.Melissa@epa.gov; or Patrick
Gilbride, Director, at (303) 312-6969 or Gilbride.Patrick@epa.gov.
Revisions Needed to National Contingency Plan                                                                               11-P-0534
Based on Deepwater Horizon Oil Spill


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                5

                Scope and Methodology ..............................................................................               6     


   2	   EPA Needs to Revise Subpart J of the NCP to Include a 

        More Appropriate Testing Procedure...............................................................                          8


                EPA Could Have Used a Better Testing Procedure ....................................                                8

                Conclusion...................................................................................................     11     

                Recommendation ........................................................................................           11     

                Agency Comments and OIG Evaluation ......................................................                         11 


   3	   EPA Increased Its Involvement During Deepwater Horizon Oil Spill ............                                             12 


                Other Dispersants Could Have Been Used but Not in the Time

                       Afforded by the Joint Directive...........................................................                 12 

                EPA Was Not Prepared for Unprecedented Volume and Duration 

                       of Dispersant Use and Subsea Application .......................................                           14 

                Additional Clarity Needed on Roles and Responsibilities for

                       Responses to Spills of National Significance ....................................                          17 

                Conclusion ...................................................................................................    19 

                Recommendations ......................................................................................            20 

                Agency Comments and OIG Evaluation ......................................................                         21 


   Status of Recommendations and Potential Monetary Benefits..............................                                        23 




Appendices
   A	   Details on Scope and Methodology..................................................................                        24 


   B	   Allegation of Perjury by Senior Officials in Congressional Testimony ........                                             26 


   C	   OSWER’s Response to Draft Report ................................................................                         27 


   D	   OIG Evaluation of OSWER’s Response ...........................................................                            34 


   E	   ORD’s Response to Draft Report......................................................................                      36 


   F	   Distribution .........................................................................................................    37

                                  Chapter 1

                                  Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), received two separate Hotline complaints regarding the use of dispersants
            in response to the Deepwater Horizon oil spill in the Gulf of Mexico. The first,
            received on May 16, 2010, alleged that EPA “approved” the use of Corexit
            although there were other less harmful substances available. We used the
            following objectives to address the first Hotline complaint:

               •	 Determine what steps EPA took to analyze Corexit to include it on the
                  National Contingency Plan Product Schedule.

               •	 Determine EPA’s role in the decision to use Corexit over other dispersants
                  in the Deepwater Horizon oil spill.

            The second Hotline complaint, received July 25, 2010, alleged that EPA was
            covering up the effects of the dispersant being used and alluded to EPA staff lying
            and committing perjury. The OIG Office of Counsel reviewed the perjury
            allegation.

Background
            EPA’s Oil Response Authorities and Organization

            EPA’s Office of Solid Waste and Emergency Response (OSWER) provides
            policy, guidance, and direction for the Agency’s emergency response and waste
            programs. Within OSWER, the Office of Emergency Management (OEM) works
            with other federal partners to prevent accidents as well as to maintain superior
            response capabilities. While several laws address EPA’s emergency management
            program, two laws set forth EPA’s responsibilities for responses to oil spills:

               •	 Federal Water Pollution Control Act, as amended (Clean Water Act, or
                  CWA)
               •	 Oil Pollution Act (OPA) of 1990

            The CWA is the principal federal statute protecting navigable waters and
            adjoining shorelines from pollution. Section 311 of the CWA addresses pollution
            from oil and hazardous substance releases, providing EPA and the U.S. Coast
            Guard (USCG) the authority to establish a program for preventing, preparing for,
            and responding to oil spills. EPA implements CWA provisions through a variety


11-P-0534                                                                                      1
            of regulations, including the National Oil and Hazardous Substances Pollution
            Contingency Plan (National Contingency Plan, or NCP).

            OPA, which expanded the federal government’s ability to respond to oil spills,
            became federal law following the Exxon Valdez oil spill. OPA provided new
            requirements for contingency planning by both government and industry. OPA also
            established a 13-member Interagency Coordinating Committee on Oil Pollution
            Research, currently chaired by the USCG. Executive Order 12777, signed in 1991,
            implemented OPA and delegated responsibilities under Section 311 of CWA to EPA,
            the U.S. Department of the Interior, and the U.S. Department of Transportation.

            National Contingency Plan

            The NCP serves as the federal government’s blueprint for responding to oil spills
            and hazardous substance releases. The NCP established national response
            capability and overall coordination among the hierarchy of responders and
            contingency plans for oil spills and hazardous substance releases, including a Spill
            of National Significance. For discharges occurring in the coastal zone, the USCG
            Commandant can designate a spill as a Spill of National Significance due to its
            severity, size, location, actual or potential impact on the public health and welfare
            or the environment, or the complexity of the necessary response effort. The
            federal government performs three fundamental activities pursuant to the NCP:

               •	 Preparedness planning and coordination for response to a discharge of oil
                  or release of a hazardous substance, pollutant, or contaminant
               •	 Notification and communications
               •	 Response operations at the scene of a discharge or release

            The NCP is a key component of the National Response System, a multilayered
            response network of individuals and teams from federal, state, local, and tribal
            agencies, and industry. The system includes: the National Response Center,
            On-Scene Coordinators (OSCs), the National Response Team (NRT), and the
            Regional Response Teams (RRTs). The NCP designates EPA and USCG roles
            and responsibilities for the NRT, RRTs, and OSCs. The NRT is responsible for
            national response and preparedness planning, coordinating regional planning, and
            providing policy guidance and support to RRTs. The Director for OEM serves as
            EPA’s representative/chair to the NRT; the USCG serves as vice-chair. RRTs are
            responsible for regional planning and preparedness activities, and providing
            advice and support to the OSC when activated during a response. The RRTs are
            co-chaired by EPA and the USCG.

            The NCP designates the USCG as the lead response agency and appoints the OSC
            for spills within or threatening coastal zones, whereas EPA leads and appoints the
            OSC for response to spills that occur in inland zones. For a Spill of National
            Significance in the coastal zone, the NCP states that the USCG may name a
            National Incident Commander to assume the role of OSC in communicating with


11-P-0534                                                                                      2
            affected parties and the public, and coordinating federal, state, local, and
            international resources at the national level. For a Spill of National Significance in
            the inland zone, the EPA Administrator may name a senior Agency official to assist
            the OSC. The NCP says coordination will involve, as appropriate, the NRT, RRTs,
            governors of affected states, and mayors or other chief executives of local
            governments.

            The NCP outlines requirements for contingency planning under OPA and requires
            the development of Regional and Area Contingency Plans to prepare for the
            possibility of an oil spill or hazardous substance release. Area Contingency Plans,
            when implemented in conjunction with other provisions of the NCP, must be
            adequate to remove a worst-case discharge and to mitigate or prevent a substantial
            threat of such a discharge.

            NCP Product Schedule

            Executive Order 12777 delegated to EPA’s Administrator the functions in CWA
            Section 311 on schedules of dispersants. Subpart J of the NCP requires EPA to
            prepare and maintain the Product Schedule, which OEM maintains. The schedule
            is a list of dispersants and other spill-mitigating devices that may be used in
            carrying out the NCP. Dispersants are chemicals that accelerate the natural
            dispersion process created by energy, allowing oil to mix with water. Dispersants
            include surfactants that break down oil into smaller droplets that are more likely
            to dissolve into the water column. The decision to use dispersants involves trade­
            offs between decreasing risks to water surface and shoreline habitats, and
            increasing potential risks to organisms in the water column and on the sea floor.

            Subpart J lists 12 data requirements that manufacturers must submit to have EPA
            consider including their dispersant products on the schedule. These requirements
            include dispersant application and storage methods, and efficacy and toxicity
            testing information. The requirements limit toxicity testing to acute (short-term)
            studies on one fish species and one shrimp species. Dispersants must demonstrate
            at least a 50 percent plus or minus 5 percent effectiveness on the average of two
            crude oils using a Swirling Flask Test (meaning the product must disperse at least
            45 percent of oil in testing). Subpart J requires that laboratories conduct efficacy
            and toxicity testing and manufacturers submit test results from these laboratories
            with their product information. There are two levels of review for what
            manufacturers submit: one performed by an EPA contractor, and one performed
            by an OEM Product Schedule Manager who reviews materials and data for
            completeness before listing products on the schedule. EPA does not perform
            product testing to independently confirm test results submitted by manufacturers.

            Inclusion on the Product Schedule does not mean that EPA approved the product
            for use. Instead, it means the product may be authorized for use during a spill
            response by the designated federal OSC.




11-P-0534                                                                                      3
                  Deepwater Horizon Oil Spill

                  The Deepwater Horizon mobile offshore drilling unit, owned and managed by
                  Transocean and contracted by BP p.l.c., began drilling operations in January
                  2010. On April 20, 2010, the Deepwater Horizon unit exploded and caught fire,
                  and on April 22 it sank. The spill lasted 87 days and spilled an estimated
                  4.9 million barrels of oil,1 making it the largest marine oil spill in U.S. history.
                  The USCG, as designated federal OSC (FOSC) for spills occurring in the coastal
                  zone, led the federal response to the spill. On April 29, 2010, the Secretary of the
                  Department of Homeland Security designated the spill as a Spill of National
                  Significance and on May 1, 2010, named a USCG Admiral (then Commandant) as
                  National Incident Commander.

                  Responders first used dispersants on April 22. Responders used Corexit EC9527A
                  and Corexit EC9500A during the response. The standing inventory of EC9527A
                  was depleted, and EC9500A became the primary dispersant used during the
                  response. On April 30, BP suggested using dispersants subsurface at the source of
                  the spill, a novel approach to oil spill mitigation. Responders hoped that, in
                  addition to reducing shoreline impacts, subsurface application would result in less
                  dispersants used overall. BP conducted three rounds of testing between April 30
                  and May 10 on subsurface application, and a mix of federal scientists (including
                  but not limited to EPA, the USCG, and the National Oceanic and Atmospheric
                  Administration) worked to create a monitoring protocol for subsurface dispersant
                  use. Table 1 lists major response events, including joint actions of EPA and the
                  USCG on dispersant applications (denoted in red).




1
 In its response to our draft report, OSWER indicated that there is an ongoing investigation into the number of
barrels spilled.


11-P-0534                                                                                                         4
Table 1: Major events in the Deepwater Horizon oil spill response
   Date                                                       Event
  04/20/10    Deepwater Horizon oil drilling rig exploded.
  04/29/10    Homeland Security Secretary designated the spill as a Spill of National Significance and the USCG
              appointed a National Incident Commander (on 05/01/10).
  05/10/10    EPA and the USCG issued a Joint Directive to BP requiring them to implement a monitoring and
              assessment plan for subsurface dispersant applications.
  05/14/10    EPA and the USCG issue Addendum 1 to the Directive on specific details of the monitoring plan and
              requiring BP to include a more thorough oil analysis that will allow EPA to determine whether the
              plume is toxic to aquatic life.
  05/20/10    EPA and the USCG issued Addendum 2 to the Directive requiring BP to identify and use a less toxic
              and as effective dispersant. BP responded to Addendum 2, saying Corexit was the only dispersant
              available in sufficiently large quantities to be useful at the time of the spill.
  05/26/10    EPA and the USCG issued Addendum 3 to the Directive telling BP to establish a goal to reduce
              dispersant application by 75 percent. The Addendum limited subsurface dispersant application to
              15,000 gallons per day, and eliminated surface application altogether except for when an exemption is
              approved.
  06/09/10    EPA Administrator approved a process for daily approval of surface dispersant applications.
  06/30/10    EPA issued toxicity results on testing on eight dispersants listed on the NCP Product Schedule. EPA
              concluded that Corexit EC9500A was not significantly more toxic than other dispersants tested.
  07/15/10    The well was capped and oil flow halted.
  08/02/10    EPA issued toxicity results on the second round of testing. Results confirmed that the dispersant used
              in response, Corexit EC9500A, is generally no more or less toxic than other available alternatives.
Source: Information collected by OIG research based on a variety of sources.

                 Numerous questions have been raised on the effectiveness of dispersants, their
                 inherent toxicity, and the toxicity of dispersed oil. EPA maintains a modest oil
                 spill research and development program with one staff member and limited
                 contract staff support, and a budget between $500,000 and $700,000 annually
                 over the last 10 years.

Noteworthy Achievements
                 To increase transparency, EPA made health and environmental data available on
                 the Agency’s website throughout the spill response and recovery operation. EPA
                 monitored air, water, sediment, and waste generated by the cleanup operations.
                 EPA posted environmental data, including air quality and water samples, on the
                 Agency’s website as collected, and updated postings as needed. EPA’s monitoring
                 and sampling activities provided the USCG and state and local governments with
                 information on potential impacts of the oil to the human health of residents and
                 aquatic life along the shoreline. EPA’s activities included:

                      •	 Collecting samples along the shoreline and monitoring for chemicals
                         related to oil and dispersants in the air, water, and sediment
                      •	 Supporting and advising USCG efforts to clean the reclaimed oil and
                         waste from the shoreline



11-P-0534                                                                                                           5
               •	 Being actively involved with new monitoring procedures for observing
                  effects of dispersants in the subsurface environment

            OSWER demonstrated proactive efforts to improve emergency response plans.
            In a November 2, 2010, memorandum, the OSWER Assistant Administrator listed
            interim actions that RRTs should take in order to benefit from the experiences and
            knowledge gained during the Deepwater Horizon oil spill. The memorandum
            directed Regional Administrators to engage federal partners through the NRT to
            reassess dispersant use guidelines under the NCP for future oil spills. The
            memorandum tasked RRT representatives to work with their partners to revise
            Area and Regional Contingency Plans with respect to dispersant use. For
            example, the memorandum said plans should develop or address:

               •	 A hierarchy of preferred oil spill response measures, including mechanical
                  recovery (such as skimming/booming and controlled burning), followed
                  by dispersant use
               •	 Site-specific and oil-specific rationale for environmental trade-offs and
                  favorable dispersant use conditions, such as mixing energy, water depth,
                  wind speed, and distance from shorelines
               •	 Steps to include the public and keep them informed
               •	 A process for longer-term responses and the need for monitoring
                  information to reassess dispersant and chemical use

            Since the Deepwater Horizon oil spill, EPA formed a workgroup, which includes
            OEM, to address necessary revisions to the NCP, and undertook efforts to gather
            and apply lessons learned from the spill.

Scope and Methodology
            We conducted our work from August 2010 to May 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform our review to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.

            To address our first objective, we analyzed the NCP Product Schedule and other
            relevant laws and regulations to determine the steps EPA takes to include a
            dispersant on the schedule. We reviewed information submitted by the
            manufacturer of Corexit EC9527A and EC9500A to get those dispersants listed
            on the schedule.

            To address our second objective, we reviewed relevant laws and regulations that
            authorize the federal government’s response to oil spills. We reviewed federal
            guidance and documents to understand established policies and procedures used
            throughout the response. We conducted research on dispersants, including


11-P-0534                                                                                       6
                   dispersant testing protocols and stockpiles. We gathered and analyzed information
                   and conducted interviews with OSWER, OEM, Region 6,2 the EPA Office of
                   Research and Development (ORD), and the USCG to understand EPA’s role in
                   decisionmaking on the use of dispersants. Appendix A provides additional
                   information on our scope and methodology.

                   The OIG Office of Counsel addressed components of one Hotline complaint
                   pertaining to perjury allegations. Office of Counsel reviewed testimony by EPA
                   senior officials to determine whether evidence demonstrated that perjury existed.
                   Appendix B summarizes Office of Counsel’s perjury review results.




2
    Responders activated the Region 6 RRT because the Deepwater Horizon oil spill occurred in Region 6 waters.


11-P-0534                                                                                                        7
                                  Chapter 2

       EPA Needs to Revise Subpart J of the NCP to 

      Include a More Appropriate Testing Procedure 

            EPA and the manufacturer of Corexit completed required steps to include both
            Corexit EC9527A and EC9500A on the NCP Product Schedule. However, EPA
            has not updated the NCP since 1994 to include the most appropriate efficacy
            testing protocol. Subpart J of the NCP identifies the requirements a manufacturer
            must meet for a product’s inclusion on the Product Schedule. One of the 12 data
            requirements is efficacy results using the Swirling Flask Test (SFT). EPA’s OEM
            considered revising Subpart J to include changing the efficacy testing procedure
            to the Baffled Flask Test (BFT)—a more reproducible testing procedure identified
            in an EPA study a decade ago. OEM staff worked on revising the rule for a few
            years, but had not finalized the rulemaking before the Deepwater Horizon spill
            occurred because of competing priorities and changes in management.
            Decisionmakers at the time of the spill relied on efficacy results from the SFT,
            which was found to be susceptible to human error. The BFT has proved more
            reproducible, and if EPA had updated Subpart J to include it as the standard
            testing protocol, more reliable efficacy data may have been available at the time
            of the Deepwater Horizon oil spill.

EPA Could Have Used a Better Testing Procedure
            Section 311 of the CWA states that the NCP shall include a schedule identifying
            dispersants that may be used in carrying out the NCP and the quantities of and
            waters in which such dispersants may be used safely. NCP Subpart J delegates
            EPA the responsibility to “prepare a schedule of dispersants, other chemicals, and
            other spill mitigating devices and substances, if any, that may be used in carrying
            out the NCP.” To include a product on the schedule, a manufacturer must submit
            12 data requirements, including efficacy and toxicity testing results obtained from
            an independent laboratory. At the time of the Deepwater Horizon oil spill,
            Subpart J included the SFT as the required efficacy testing procedure.

            EPA’s NCP Product Schedule includes as dispersants Corexit EC9527A and
            EC9500A, both of which were used in the Deepwater Horizon oil spill response.
            EPA first listed Corexit EC9527A on March 10, 1978, and Corexit EC9500A on
            April 13, 1994. The Corexit manufacturer submitted all required data, including
            SFT results with effectiveness values demonstrating at least 50 percent, plus or
            minus 5 percent, on the average of two crude oils. (Corexit EC9527A efficacy
            results equaled 50.4 percent and Corexit EC9500A results equaled 50 percent.)
            There are two levels of review when manufacturers submit product information
            for inclusion: one performed by an EPA contractor, and the other performed by
            EPA’s Product Schedule Manager who reviews materials and data for



11-P-0534                                                                                      8
                  completeness before listing products on the schedule. EPA is not required to
                  perform product testing to confirm test results submitted by manufacturers.

                  The NCP was revised in 1994 to adopt the SFT as the official efficacy laboratory
                  testing procedure to list a dispersant on the schedule. Multiple EPA and outside
                  experts have expressed concerns with the SFT. In a 2001 report, ORD described
                  how it discovered—soon after the 1994 revision and after the SFT’s first year of
                  use—“unexpected large discrepancies” between the data submitted by dispersant
                  manufacturers and those generated by EPA contract laboratories.3 An ORD
                  scientist and EPA’s lead oil spill researcher said SFT procedures are not
                  reproducible and are susceptible to human error. Thus, EPA initiated research in
                  1999 to determine and correct the cause of the SFT’s poor reproducibility.

                  In November 2001, a group of scientists published an EPA-funded research study
                  introducing a new testing procedure—the BFT—that was found to be more
                  reproducible than the SFT. An ORD scientist explained that a major source of
                  reproducibility problems with the SFT pertained to the flask design, which the
                  new BFT design addressed. Figure 1 shows both designs. In addition, a 2005
                  National Academy of Sciences report suggested the BFT as a better indicator of
                  efficacy than the SFT. The 2008–2009 biennial report for the Interagency
                  Coordinating Committee on Oil Pollution Research noted that EPA intended for
                  the BFT to be the new standard. A BP representative said that he does not find the
                  SFT relevant in the field.

                     Figure 1: SFT and BFT designs

                          Swirling Flask Test apparatus                Baffled Flask Test apparatus




                      Source: ORD.


3
  EPA’s lead oil spill researcher, Albert D. Venosa, described this history and early concerns with the SFT in a 2010
report, Use of the Baffled Flask Test to Determine the Dispersibility of S. Louisiana Crude Oil by Eight Oil
Dispersant Products Listed on the NCP Product Schedule.


11-P-0534                                                                                                           9
                Concerns with the SFT were one issue that prompted EPA to consider revising
                Subpart J when staff first identified issues a decade ago. EPA’s OEM informed us it
                had worked on revising the rule for a few years and “prepared a proposed rule to
                modify the efficacy test and several other test and data requirements planned for
                promulgation in late spring 2010. However, publication of the proposed rule was set
                aside. . . .” Former Agency managers said EPA did not finalize revisions due to
                changes in management and competing priorities for program resources. EPA
                promulgated revisions to the Spill Prevention, Control, and Countermeasure rule in
                2002 and implementation of the rule became an Agency focus demanding staff and
                resources. As a result, the NCP has not been updated since 1994.

                Since the spill, the EPA Administrator testified that changes are needed to the NCP’s
                Subpart J, including dispersant registration and a more complete range of tests to
                address human and environmental health. EPA informed us, “the available record
                does not suggest the dispersant used was ineffective, or that it would not have also
                passed the BFT.” In fact, Corexit EC9500A,4 whose SFT results rank as the least
                effective dispersant, is the second most effective dispersant using BFT results.
                Table 2 lists dispersant efficacy rankings using SFT information from EPA’s NCP
                Product Schedule Technical Notebook and BFT results from ORD’s 2010 study.
                This recent study intended to determine how effective the eight dispersants
                currently available on the schedule performed on south Louisiana crude oil at the
                two temperatures in the Gulf of Mexico (5°C represents temperature conditions for
                the deep sea dispersant injection, and 25°C represents temperature conditions for
                surface application).

                Table 2: Dispersant efficacy ranking using SFT and BFT
                                Ranking of efficacy test results (most to least effective)
                                  SFT                       BFT (5°)                      BFT (25°)
                   1   DISPERSIT SPC 1000          DISPERSIT SPC 1000            DISPERSIT SPC 1000
                   2   ZI-400                      COREXIT EC9500A               COREXIT EC9500A
                   3   SAF-RON GOLD                JD-2000                       JD-2000
                   4   JD-2000                     NOKOMIS 3-F4                  ZI-400
                   5   NOKOMIS 3-AA                NOKOMIS 3-AA                  NOKOMIS 3-AA
                   6   NOKOMIS 3-F4                SAF-RON GOLD                  SEA BRAT #4
                   7   SEA BRAT #4                 ZI-400                        NOKOMIS 3-F4
                   8   COREXIT EC9500A             SEA BRAT #4                   SAF-RON GOLD
                Source: OIG analysis of NCP Technical Notebook SFT results and ORD’s report. Column 1 is an 

                average of two oils using the SFT. Columns 2 and 3 are for one oil using the BFT.

                Note: There were differences in testing protocol between the SFT conducted for the schedule and 

                this study; therefore, we limited comparability of information to ranking efficacy test results.





4
  Corexit EC9527A was not one of the eight dispersants tested because, as we noted in chapter 1, the standing
inventory of EC9527A was depleted and EC9500A became the primary dispersant used during the response. We did
not have BFT results for Corexit EC9527A and could not include it in our analysis.


11-P-0534                                                                                                    10
Conclusion
            When the Deepwater Horizon oil spill occurred in April 2010, EPA used
            dispersant efficacy data on the Production Schedule that were based on the SFT.
            If EPA had updated Subpart J to include the BFT as the standard testing protocol,
            more reliable efficacy data would have been readily available at the time of the
            spill.

Recommendation
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               1. 	 Develop appropriate NCP Subpart J testing revisions, including
                    proceeding with plans in place before the Deepwater Horizon oil spill, to
                    incorporate the most appropriate efficacy testing protocol. Develop an
                    action plan with milestones for these and any other necessary revisions
                    and take steps to propose NCP Subpart J revisions.

Agency Comments and OIG Evaluation
            In its response to our official draft report, OSWER generally agreed with
            recommendation 1. OSWER also provided comments on the report text. OSWER
            stated that, even with the additional information provided by the BFT, the
            dispersant used in the Deepwater Horizon oil spill would likely not have changed,
            and that lessons learned from the spill have informed an ongoing examination of
            Subpart J. While this may have been the case, we maintain that more reliable data
            may have been available had OSWER proceeded with its plan to update Subpart J
            prior to the spill. We revised our report text as appropriate based on OSWER’s
            response. Appendix C includes OSWER’s full response, and appendix D includes
            our evaluation.




11-P-0534                                                                                   11
                                  Chapter 3

            EPA Increased Its Involvement During 

                 Deepwater Horizon Oil Spill 

            We found that responders to the Deepwater Horizon oil spill could have used
            other dispersants in the response, but not within the window of time afforded by
            Addendum 2 to the pertinent Joint Directive. We also found that EPA involved
            senior officials in daily dispersant decisions in addition to the Agency’s
            representative to the RRT. Prior to a spill occurring in deep waters, EPA is one of
            several agencies responsible for contingency planning, including worst-case
            discharges, and for listing products on the NCP Product Schedule. During an
            actual spill response, EPA has responsibilities on the NRT and on RRTs. Section
            910 of the NCP discusses the concurrence role for authorization of dispersant use
            associated with the EPA RRT representative. OSWER said that concurrence
            authority is not exclusive and does not prohibit involvement of senior
            management. While we agree that EPA’s Administrator retains delegated
            authority, we found that EPA’s involvement of senior Agency officials, in
            addition to the RRT representative, created confusion on roles and
            responsibilities. EPA’s involvement in dispersant decisions was primarily due to
            USCG’s request given concerns surrounding the use of dispersants and subsea
            application. We identified two main reasons why EPA involved senior officials
            during the spill:

               •	 EPA was not prepared for this unprecedented spill, including the volume
                  and duration of dispersant use, and subsea dispersant application.
               •	 EPA and others needed additional clarity on roles and responsibilities for a
                  response to a Spill of National Significance.

Other Dispersants Could Have Been Used but Not in the Time
Afforded by the Joint Directive
            The first Hotline complaint we received alleged that EPA approved the use of
            Corexit when other, less harmful substances could have been used. Dispersants
            EPA lists on the NCP Product Schedule “may be authorized for use” by the
            designated FOSC. Subpart J of the NCP requires RRTs to address the desirability
            of using dispersants as a part of their planning activities. Regional and Area
            Contingency Plans must include, as appropriate, pre-authorization plans that
            address the specific contexts in which to use such products. The Region 6 RRT
            granted pre-authorization to the FOSC for dispersant use as defined by the RRT 6
            FOSC Dispersant Pre-approval Guidelines and Checklist. The plan says, “The
            only requirement for dispersant product selection is that the dispersant must be
            included on the NCP Product Schedule and considered appropriate by the FOSC
            for existing environmental and physical conditions.”



11-P-0534                                                                                    12
            As the FOSC, the USCG approved BP’s request to use Corexit EC9527A,
            followed by Corexit EC9500A, in the response. On May 20, 2010, EPA and the
            USCG issued Addendum 2 to the Joint Directive they had issued to BP. The
            addendum required BP to identify and use one or more approved dispersants from
            the Product Schedule that were available in sufficient quantities and were less
            toxic and as effective as Corexit EC9500A. In addition, Addendum 2 required BP
            to respond to EPA within 24 hours and use the alternate dispersant identified
            within 96 hours of the Addendum’s issuance and after receiving EPA’s approval.

            BP responded that no other dispersants that met the acute toxicity and effectiveness
            criteria in Addendum 2 were available in sufficient quantities to be useful at the
            time of the spill. According to manufacturers we spoke with, BP contacted a
            number of them to determine production capacities and inventories available. All
            manufacturers indicated to BP that they could meet the production requirements but
            needed 3 to 10 days to ramp up production. BP maintained that Corexit EC9500A
            remained the best dispersant option. Dissatisfied with BP’s response, EPA
            contacted manufacturers to verify production capacity and conducted its own
            toxicity testing on eight dispersants.

            BP chose the Corexit product as the dispersant to use due to prevalence and
            national and international stockpiles at the time of the response. In addition, BP’s
            Gulf of Mexico Regional Oil Spill Plan listed the Corexit dispersants in over
            99 percent of dispersants inventoried. EPA and the USCG interviewees said
            Corexit has been tested many times, is well known, and responders are
            comfortable with using it in a spill response.

            EPA and the USCG issued Addendum 2 due to the volume of dispersants used
            and because EPA said it received public concerns to use a less toxic dispersant. In
            testimony before the House Energy and Commerce Subcommittee on Energy and
            the Environment, Administrator Lisa P. Jackson said EPA will continue to push
            BP to switch to less toxic alternatives due to the volumes of the dispersants being
            used and the lengthening period of this crisis. EPA staff said the Agency
            conducted its own toxicity testing on available dispersants to ensure that it based
            decisions about ongoing dispersant use on the best available science. EPA staff
            said its tests were consistent with those required by Subpart J but were conducted
            by one laboratory for comparability of results. EPA said it did this rather than rely
            solely on test data provided by the Product Schedule with test results conducted at
            different times by different laboratories. Additionally, EPA staff said its tests used
            Louisiana Sweet Crude Oil rather than #2 Fuel Oil (stipulated in the NCP) to
            increase applicability of results to the Gulf situation. Finally, OEM’s Regulation
            and Policy Development Director said its tests also addressed BP’s potential
            endocrine disruptor concern.

            During the spill, EPA used staff resources to obtain more information than was
            available on the NCP Product Schedule. EPA’s toxicity testing results, issued on



11-P-0534                                                                                      13
            June 30, 2010, verified that results were consistent with the schedule, and indicated
            that none of the eight dispersants tested displayed biologically significant endocrine
            disrupting activity. EPA’s testing results did not affect which dispersant responders
            used; Corexit was the only dispersant used in the response. Responders could have
            used other dispersants, but manufacturers would have needed more time to ramp up
            their production than the window of time afforded by Addendum 2. Three of the
            five dispersant manufacturers contacted believed they wasted their time in
            responding to various requests for information, that responders never really
            considered their products, and that responders did not capture their production
            capabilities. OSWER said it was not able to obtain consistent information on
            production capacities from some manufacturers, and that the Agency worked
            during the spill to be as transparent and open as possible with manufacturers.

EPA Was Not Prepared for the Unprecedented Volume and Duration
of Dispersant Use and Subsea Application
            Contingency plans we reviewed were out of date at the time of the Deepwater
            Horizon oil spill and were not updated to reflect deepwater drilling trends, lessons
            learned from a 2002 Spill of National Significance exercise, and past major oil
            spills. The OPA improved the nation’s ability to prevent and respond to oil spills
            and provided requirements for contingency planning. The NCP further outlines
            these requirements and states that Contingency Plans shall be adequate to remove
            a worst-case discharge and mitigate or prevent a substantial threat of such a
            discharge. However, there is no specific requirement to update contingency plans
            under the NCP or OPA. Improved contingency planning using available
            information could have better prepared EPA to support USCG’s response to the
            spill.

            Various documents address contingency planning:

               •	 OPA established provisions that expanded the federal government’s
                  responsibility and resources to respond to oil spills. OPA provided new
                  requirements for contingency planning by both government and industry.
               •	 The NCP outlines requirements for Regional and Area Contingency Plans:
                      o	 Subpart C requires each designated area to develop a plan adequate
                          to remove a worst-case discharge and to mitigate or prevent a
                          substantial threat of such a discharge.
                      o	 Subpart J states that RRTs and Area Committees should address
                          the desirability of using various products on the NCP Product
                          Schedule based on certain environmental conditions. Plans should
                          include applicable pre-authorization plans that address the specific
                          contexts in which to use such products.
               •	 The Region 6 RRT Regional Integrated Contingency Plan calls for
                  continuous reviews on the effectiveness and integration of all plans based
                  on actual response experiences, exercises, and other relevant information
                  (including the spill history of an area) that will lead to enhanced plans.


11-P-0534                                                                                     14
            Region 6 RRT contingency plans were outdated at the time of the Deepwater
            Horizon oil spill. The Region 6 RRT completed an interim update to non-
            dispersant sections in the Regional Integrated Contingency Plan on May 20, 2010,
            subsequent to the explosion that caused the Deepwater Horizon oil spill. The
            RRT-6 FOSC Dispersant Pre-approval Guidelines and Checklist was last updated
            in 2001. One EPA official described plan revisions as a very detailed and
            complicated process, but said a catastrophic event would trigger updates to
            contingency plans. Plans were not updated to address the following events:

                •   A dramatic expansion of deepwater drilling in the Gulf of Mexico. Oil
                    production in the Gulf grew from 275 million barrels in 1990, where
                    4.4 percent came from deepwater wells, to 567 million barrels in 2009,
                    where deepwater wells yielded more than 80 percent of the total. In
                    addition, from 2001 to 2004, 11 major oil fields were discovered in water
                    depths of 7,000 feet or more. Figure 2 shows the increase in water depth of
                    wells drilled in the Gulf from 1940 to 2010.

                •	 Lessons learned from a Gulf of Mexico Spill of National Significance
                   exercise in 2002 stating that pre-authorization plans should address
                   potential shortfalls of dispersant supplies and equipment. The lessons
                   learned document assigned EPA and the USCG as the steward agencies,
                   yet plans were not updated to address potential dispersant shortfalls.
                   OSWER said that dispersants were not used in this exercise but agreed
                   that pre-authorization plans should address potential shortfalls of
                   dispersant supplies and equipment.

                •	 Hurricanes Katrina and Rita in 2004 and 2005, which collectively
                   destroyed 113 oil platforms, 70 vessels, and nearly 130 oil and natural gas
                   pipelines, and ravaged the Gulf Coast with major impacts to offshore
                   infrastructure and operations.
            Figure 2: Depth of wells in the Gulf of Mexico, 1940 to 2010




            Source: National Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling, Final
            Report (January 2011), based on data from the Bureau of Ocean Energy Management, Regulation,
            and Enforcement within the Department of the Interior.



11-P-0534                                                                                              15
                   Further, contingency plans were not updated based on other historical spills. The
                   2010 Region 6 RRT Regional Integrated Contingency Plan defines a major
                   discharge as greater than 100,000 gallons in coastal waters. The Ixtoc I spill in the
                   Gulf of Mexico in 1979 released 3.3 million barrels of oil and lasted over
                   10 months. Between 1 million and 2.5 million gallons of mostly Corexit
                                             dispersant products were applied. OSWER said lessons
                                             from this 1979 spill were available before the
                                             contingency plan was drafted. However, we found that
                                             knowledge gained from this spill was not considered by
                                             the Region 6 RRT when drafting its Regional Integrated
                                             Contingency Plan to better address worst-case
                                             discharges and spill duration. In addition, ORD’s
                                             Assistant Administrator said ORD would have liked to
                                             have more data and insight from the Ixtoc I spill to build
                                             into decisionmaking for future spills.
The Ixtoc oil spill. (National Oceanic and
Atmospheric Administration photo)           During the Deepwater Horizon oil spill, a number of
                                            concerns were not addressed in contingency plans,
                   especially with regard to dispersants. For example, one EPA director described
                   the novel approach of applying dispersants subsurface as “somewhat trial and
                   error.” Concerns included questions on the potential impact of the volume of
                   dispersants applied, effectiveness of dispersants at such low temperatures, oil
                   weathering as it rose to the surface, and environmental effects on the deep sea.
                   The Region 6 RRT Regional Integrated Contingency Plan itself lists one of the
                   disadvantages of dispersants as “lots of unknowns.”

                   The Region 6 RRT did not update its plans because there is no requirement to do
                   so. Even though the Region 6 RRT Regional Integrated Contingency Plan calls
                   for the RRT to continuously review the effectiveness of plans, the NCP and OPA
                   do not require plans to be reviewed and updated. Response plans contained
                   boilerplate language taken from the NCP with slight variation based on local
                   geography. For example, the section on Chemical Countermeasures in the
                   Region 6 RRT Regional Integrated Contingency Plan essentially repeats the
                   information in Subpart J of the NCP. The plan does not address Region 6
                   RRT-specific issues such as logistical boundaries where dispersants may not be
                   used or discussion of the pre-authorization plan.

                   An EPA Region 6 division director said he did not believe EPA could have
                   anticipated a spill of this magnitude, and OSWER said that the dispersant pre-
                   approval plan was not anticipated for long-term use. However, more detailed and
                   updated contingency planning using available information could have better
                   prepared EPA and others to respond to the spill. Future planning should consider
                   the Deepwater Horizon scenario and address worst-case discharges, lessons
                   learned from Spill of National Significance exercises, and industry trends. OEM
                   staff said the RRT is working to revisit the conditions associated with dispersants



11-P-0534                                                                                             16
            under the pre-authorization plans. Additionally, on November 2, 2010, OSWER’s
            Assistant Administrator provided interim actions to RRTs to address issues raised
            during the Deepwater Horizon oil spill. The interim actions call for Area and
            Regional Contingency Plans to consider various conditions and limitations to
            dispersants. The interim actions said plans should consider site-specific and oil-
            specific rationale for environmental trade-offs and favorable dispersant use
            conditions, as well as a process for longer-term responses and the need for
            monitoring information to reassess dispersant use.

Additional Clarity Needed on Roles and Responsibilities for
Responses to Spills of National Significance
            Additional guidance is needed on the roles and responsibilities for responding to a
            Spill of National Significance. As the first Spill of National Significance in the
            United States, and due to the unprecedented nature of the spill, EPA increased its
            involvement during the Deepwater Horizon response. EPA’s involvement was
            primarily due to USCG’s request given concerns surrounding the use of
            dispersants and subsea application. EPA was involved and concurred with the
            decision to use dispersants subsurface, issued a Joint Directive and Addenda with
            the USCG to BP, and became involved in daily operational dispersant decisions.
            The NCP and the National Response Framework allow the response structure to
            adjust to include senior Agency officials, especially when responding to a Spill of
            National Significance. However, the NCP does not provide guidance on the roles
            and responsibilities of the National Incident Commander and other high-level
            officials. As a result, involvement of senior EPA officials created confusion as to
            who in EPA made dispersant decisions.

            Under the NCP, for spills occurring in coastal zones, EPA is responsible for
            planning prior to a spill and supporting the USCG during a response. The NCP
            states that for a Spill of National Significance in the coastal zone, the USCG may
            name a National Incident Commander who assumes the role of the OSC in
            communicating with affected parties and coordinating resources at the national
            level. The NCP further states that coordination will involve the NRT, RRTs, and
            others as appropriate. However, the NCP does not address how high-level
            officials other than the National Incident Commander can and should participate
            in such a response.

            Responders encountered a number of unique circumstances in the Deepwater
            Horizon oil spill, such as the spill lasting 87 days and using close to 2 million
            gallons of dispersants. Through its role as NRT chair, EPA became involved in
            the decision to use dispersants subsurface at the request of the USCG FOSC.
            Subsurface application was a novel approach to oil spill mitigation, and there was
            limited knowledge on the effects of applying dispersants a mile below the surface.
            EPA and the USCG issued a Joint Directive and Addendum 1 to BP outlining a
            subsurface dispersant monitoring plan. EPA had never issued a joint directive
            with the USCG before, and this action allowed the Agency to become more


11-P-0534                                                                                   17
            involved in the spill response, as EPA and the USCG held BP accountable for
            following the Directive.




            From left: An example of surface dispersant application (USCG photo); an example of a subsurface
            dispersant application (image taken from Macondo video feed; photograph republished from
            MSNBC/AP with permission from BP).

            On May 26, 2010, EPA and the USCG issued Addendum 3 to the Directive and
            required BP to limit the use of dispersants subsurface to 15,000 gallons per day
            and eliminate surface application except when granted exemption. It was unclear
            in our review what scientific basis responders used to set the 15,000-gallon limit.
            The Addendum sought to limit dispersant use and require more documentation
            because of concerns about ongoing dispersant applications in such large volumes.
            Given unknowns on the long-term health and environmental effects of
            dispersants, EPA wanted to use the least amount possible to be effective. Because
            of the Deepwater Horizon oil spill, Congress appropriated $2.0 million to EPA to
            support research on the short- and long-term environmental and public health
            implications associated with the spill and surface/subsurface dispersant
            applications. ORD plans to further its research efforts to include innovative and
            expansive approaches to spill remediation.

            Rather than EPA’s involvement occurring though the RRT and NRT as would
            happen in a typical response under the NCP, senior EPA officials became
            involved in daily surface dispersant decisions. The Agency was concerned about
            the precedent-setting amount of dispersants used and the number of exemptions
            the USCG granted with minimal justification. On June 9, 2010, EPA developed a
            hierarchy of decisionmaking intended to give staff-level EPA RRT
            representatives on the ground some role in daily decisionmaking on surface
            exemptions. However, internal communications indicated that senior Agency
            officials made decisions on surface applications. Key staff in Region 6, including
            EPA’s representative to the Region 6 RRT and staff involved in the response, said
            they did not have the decisionmaking authority for the Agency to approve
            dispersant applications. However, our review showed they were involved in
            gathering information for decisionmaking by senior EPA officials. One Region 6
            response official described the process as “very political” and said “operational
            control was taken away from the region.” As a result, EPA’s involvement of
            senior officials in daily surface application decisions created confusion as to who
            in the Agency made decisions. In its response to our draft report, OSWER said


11-P-0534                                                                                                18
                  that the RRT representative was heavily involved in the decisionmaking process,
                  and that the decisionmaking process included RRT and NRT members. OSWER
                  also said that senior Agency officials in Area Command, in consultation with
                  EPA’s representatives in the Incident Command, gave concurrence to the FOSC.

                                                EPA’s Administrator increased her involvement,
                                                as well as that of other senior Agency officials,
                                                due to the novel approach of applying dispersants
                                                subsurface, the size and nature of the spill, the
                                                volume of dispersants used, and political
                                                interest.5 In our interview with Administrator
                                                Jackson, she said, “As good as our field staff is, I
                                                was not going to have the response progress
                                                without a senior set of eyes . . . especially when
                                                you have the White House involved. . . . ”
EPA Administrator Jackson during one Gulf trip.
(Photo from www.RestoreTheGulf.gov).            Additionally, in her testimony on July 15, 2010,
                                                the Administrator said, “I think a unified
                command makes sense for smaller spills, but on something like this, there needs to
                be additional clarity.”

                  The concurrence process in place for surface dispersant application created delays
                  as EPA established a process requiring decisions be elevated to the OSWER
                  Assistant Administrator and, at times, to the Administrator. EPA senior officials
                  believe their involvement in the decision to apply dispersants subsurface reduced
                  the total amount of dispersants applied overall (subsurface and surface). EPA
                  officials also believe subsurface dispersant application was effective. In its
                  response to our draft report, OSWER said that all decisions regarding dispersants
                  and involving senior officials were clearly and appropriately vetted through the
                  NRT and the RRT, and that EPA acted consistent with the NCP in concurring on
                  the USCG FOSC’s decisions. However, as the President’s Commission Report
                  noted, due to insufficient guidance on roles and responsibilities for a Spill of
                  National Significance, additional protocol is needed that accounts for participation
                  by high-level officials. OSWER agrees with the need for additional clarity on
                  roles and responsibilities, as well as coordination and communication, for
                  responding to a Spill of National Significance.

Conclusion
                  Due to concerns surrounding the unprecedented volume and duration of
                  dispersant use and subsea application, EPA involved senior officials in addition to
                  the RRT representative. While Subpart J of the NCP discusses the RRT

5
 A number of EPA officials testified before Congress. Throughout the spill and after the well was capped, the EPA
Administrator testified four times, the Deputy Administrator testified once, and ORD officials testified four times.
In addition, EPA participated in hearings before the National Commission on the BP Deepwater Horizon Oil Spill.
Political officials asked EPA questions on its roles and responsibilities in an oil spill response and the health and
environmental effects of dispersants.


11-P-0534                                                                                                          19
            representatives’ concurrence role for dispersant use, it does not preclude the
            involvement of senior officials. However, EPA’s involvement of senior Agency
            officials in dispersant decisions created confusion within and outside the Agency.
            Additionally, EPA did not update plans and was not prepared for a spill of this
            magnitude, including the subsea use of dispersants. EPA could better respond to
            future significant spills by enhancing planning efforts to address unknowns
            encountered in the Deepwater Horizon response and by clarifying roles and
            responsibilities of senior Agency officials.

Recommendations
            We recommend that the Assistant Administrator for Solid Waste and Emergency
            Response:

               2. 	 Have the OEM Director work through the office’s NRT capacity to
                    establish a policy that calls for periodic reviews and updates to
                    contingency plans, after considering lessons learned from major national
                    and international oil spills, and/or based on area trends in oil drilling.

               3. 	 Modify the NCP Product Schedule and contingency plans to include
                    additional information (such as testing on crude oil, subsurface dispersants
                    application, volume and duration limits, etc.) learned from the Deepwater
                    Horizon oil spill response and use such information to revise and update
                    Area and Regional Contingency Plans.

               4. 	 Develop policies/procedures for subsurface dispersant application and
                    modify pre-authorization plans to address subsurface use.

               5. 	 Develop guidance and training for a Spill of National Significance that
                    clarifies roles and responsibilities for high-level Agency officials. Review
                    this response and the NCP and work with federal partners to address
                    lessons learned and include detail on how to respond to a Spill of National
                    Significance.

               6. 	 Review and analyze NCP Subpart J toxicity testing protocols to ensure
                    that emergency responders have the information necessary for appropriate
                    subsurface dispersant use for future oil spills.

               7. 	 As part of the action to review NCP Subpart J requirements, address the
                    need to capture and maintain dispersant manufacturer production
                    capacities, equipment requirements, and other necessary information to
                    better prepare for future oil spills. Make this information widely available
                    to the response community.




11-P-0534                                                                                     20
            We recommend that the Assistant Administrator for Research and Development:

               8. 	 Develop a research plan to address gaps on long-term health and
                    environmental effects of dispersants.

Agency Comments and OIG Evaluation
            In ORD’s response to our draft report, ORD agreed with recommendation 8.
            ORD indicated that it has already taken steps to address this recommendation,
            such as developing a longer-term strategy to address gaps specifically related to
            the health and environmental effects of dispersants and other oil-spill-related
            research needs. We concur with ORD’s planned actions. We will make final
            determinations on these actions once we review ORD’s corrective action plan and
            milestone dates to address our recommendation, and this recommendation is
            unresolved with resolution efforts in progress. Appendix E contains ORD’s
            response.

            OSWER generally agreed with our recommendations. OSWER’s response
            included comments on the text in chapter 3, most notably on the unprecedented
            nature of the Deepwater Horizon oil spill. We agree with OSWER on the
            magnitude of the spill, and we did not intend to imply that EPA’s support to the
            USCG was inadequate or that decisions were inappropriate. We believe that our
            findings and corresponding recommendations align with the fact that this event
            was unprecedented, and that EPA should take action to address lessons learned.
            We discussed OSWER’s response and our disposition in two meetings wherein
            we focused on EPA's role under the NCP. OSWER and EPA’s Office of General
            Counsel provided us the following information, which we summarized in
            chapter 1:

                   The Deepwater Horizon Oil Spill was declared a Spill of National
                   Significance. When there is a Spill of National Significance, the
                   FOSC assigned by the USCG for a coastal spill can appoint a
                   National Incident Commander. Under 40 CFR 300.323(c) of the
                   NCP, the National Incident Commander has the authority to
                   coordinate federal, State, local, or national resources for the
                   response. It is our understanding that the National Incident
                   Commander called upon the EPA Administrator for involvement in
                   various response actions, including the use of dispersants.

                   The NCP also provides for NRT involvement in a response,
                   particularly in novel or significant situations. Please see 40 CFR
                   300.110.

                   While 40 CFR 300.910 discusses the concurrence role for
                   authorization of dispersant use associated with the EPA RRT
                   representative, that concurrence authority is not exclusive and does


11-P-0534                                                                                  21
                   not prohibit the involvement of senior management. The authority,
                   jurisdiction, and implementation provisions in the NCP flow from
                   Section 311 of the Clean Water Act and are reflected in Executive
                   Order 12777. All authorities under CWA 311 are delegated either
                   directly to the Administrator by Congress, or by Executive Order
                   12777 from the President to the Administrator. While the
                   Administrator's authority may be further delegated through senior
                   management on down to the RRT representative, the Administrator
                   (and other delegatees) retain the authority to act. The mere
                   delegation of authority does not prohibit the delegator from
                   exercising said authority.

            OSWER agreed with recommendations 2, 3, 4, and 6, and stated that work is
            already underway to address most of the recommendations. We will make final
            determinations on these actions once we review OSWER’s corrective action plan
            and milestone dates to address our recommendations, and these recommendations
            are unresolved with resolution efforts in progress. OSWER suggested the
            following revision to recommendation 5: “Develop training for a Spill of National
            Significance event that clarifies roles and responsibilities for high-level Agency
            officials. Review the response and work with federal partners to address lessons
            learned.” We do not entirely agree with this revision because training alone may
            not fully address lessons learned from the response. We believe that, in addition
            to training, EPA should develop guidance based on lessons learned and be open to
            considering any necessary revisions to the NCP. We revised recommendation 5 to
            include some of OSWER’s suggested language. For recommendation 7, OSWER
            said that the proposed rule on Subpart J revisions may ask for comment on the
            manufacturer being responsible for tracking production capacities. We recognize
            this and adjusted our recommendation. Appendix C includes OSWER’s full
            response, and appendix D includes our evaluation of that response.




11-P-0534                                                                                  22
                                   Status of Recommendations and
                                     Potential Monetary Benefits
                                                                                                                                   POTENTIAL MONETARY
                                                        RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                       Planned                 Agreed
    Rec.     Page                                                                                                     Completion    Claimed      To
    No.       No.                             Subject                             Status1      Action Official           Date       Amount     Amount

      1       11 	 Develop appropriate NCP Subpart J testing revisions,             U       Assistant Administrator
                   including proceeding with plans in place before the                       for Solid Waste and
                   Deepwater Horizon oil spill, to incorporate the most                     Emergency Response
                   appropriate efficacy testing protocol. Develop an action
                   plan with milestones for these and any other necessary
                   revisions and take steps to propose NCP Subpart J
                   revisions.

      2       20 	 Have the OEM Director work through the office’s NRT              U       Assistant Administrator
                   capacity to establish a policy that calls for periodic                    for Solid Waste and
                   reviews and updates to contingency plans, after                          Emergency Response
                   considering lessons learned from major national and
                   international oil spills, and/or based on area trends in oil
                   drilling.

      3       20 	 Modify the NCP Product Schedule and contingency plans            U       Assistant Administrator
                   to include additional information (such as testing on crude               for Solid Waste and
                   oil, subsurface dispersants application, volume and                      Emergency Response
                   duration limits, etc.) learned from the Deepwater Horizon
                   oil spill response and use such information to revise and
                   update Area and Regional Contingency Plans.

      4       20    Develop
                       	     policies/procedures for subsurface dispersant          U       Assistant Administrator
                    application and modify pre-authorization plans to address                for Solid Waste and
                    subsurface use.                                                         Emergency Response

      5       20 	 Develop guidance and training for a Spill of National            U       Assistant Administrator
                   Significance that clarifies roles and responsibilities for                for Solid Waste and
                   high-level Agency officials. Review this response and the                Emergency Response
                   NCP and work with federal partners to address lessons
                   learned and include detail on how to respond to a Spill of
                   National Significance.

      6       20 	 Review and analyze NCP Subpart J toxicity testing                U       Assistant Administrator
                   protocols to ensure that emergency responders have the                    for Solid Waste and
                   information necessary for appropriate subsurface                         Emergency Response
                   dispersant use for future oil spills.

      7       20 	 As part of the action to review NCP Subpart J                    U       Assistant Administrator
                   requirements, address the need to capture and maintain                    for Solid Waste and
                   dispersant manufacturer production capacities, equipment                 Emergency Response
                   requirements, and other necessary information to better
                   prepare for future oil spills. Make this information widely
                   available to the response community.

      8       21 	 Develop a research plan to address gaps on long-term             U       Assistant Administrator
                   health and environmental effects of dispersants.                           for Research and
                                                                                                 Development


1   O = recommendation is open with agreed-to corrective actions pending
    C = recommendation is closed with all agreed-to actions completed
    U = recommendation is unresolved with resolution efforts in progress




11-P-0534                                                                                                                                           23
                                                                                 Appendix A

                 Details on Scope and Methodology
We conducted our review to address two Hotline complaints on use of dispersants in the
Deepwater Horizon oil spill. We sought to determine what steps EPA took to analyze the
dispersant Corexit to include it on the NCP Product Schedule, as well as EPA’s role in the
decision to use Corexit over other dispersants. To address both objectives, we reviewed and
summarized relevant laws, regulations, and guidance on oil spill response, including the NCP,
OPA, CWA, and Executive Order 12777. We reviewed activities by several EPA offices,
including OSWER, OEM, ORD, Region 6, and the Administrator’s office. We also interviewed
key USCG officials given that the USCG served as the lead response agency.

To address our first objective we:

   •	 Analyzed the NCP Product Schedule and reviewed information submitted by the 

      manufacturer of Corexit to get listed on the schedule.

   •	 Interviewed current and former Product Schedule Managers in OEM to determine the
      process of including a product on the Product Schedule.
   •	 Interviewed an EPA contractor about its role supporting OEM in reviewing submissions
      for the NCP Product Schedule, including the contractor’s analysis of manufacturer-
      submitted requirements and staff qualifications.
   •	 Reviewed proposed revisions EPA planned for Subpart J of the NCP before the
      Deepwater Horizon oil spill occurred and met with OSWER and OEM officials to discuss
      necessary revisions to Subpart J as a result of the spill.
   •	 Interviewed former OEM Regulation and Policy Development Division Directors to
      understand why revisions to Subpart J of the NCP were not finalized before the
      Deepwater Horizon spill.
   •	 Interviewed an ORD dispersant expert to gain an understanding of dispersants and 

      efficacy testing protocols, including the SFT and BFT. 


To address our second objective we:

   •	 Documented the timeline of events of the Deepwater Horizon oil spill to understand the
      sequence of events and highlight EPA’s activities.
   •	 Reviewed contingency plans from the Region 6 RRT as well as BP’s Gulf of Mexico
      Regional Oil Spill Response Plan to understand the level of preparation plans provided
      during the response as well as the organizational structure underlying the response.
   •	 Reviewed congressional testimony from EPA’s Administrator, Deputy Administrator,
      Assistant Administrator for ORD, and an ORD Division Director.
   •	 To understand EPA’s involvement throughout the response, including decision making
      on dispersants, interviewed:
          o	 The Administrator
          o	 Deputy Administrator
          o	 Assistant Administrators for OSWER and ORD



11-P-0534                                                                                      24
            o	 Acting Director and other key staff within OEM
            o	 The Director of the Superfund Division and key staff in Region 6, including
                EPA’s representative to the Region 6 RRT and staff involved in the response.
   •	   To understand the role of EPA versus that of the USCG, interviewed the Admiral
        appointed as National Incident Commander, FOSCs who served during the 87-day
        response, and USCG’s deputy area commander and representative to the Region 6 RRT.
        Also, reviewed e-mails and other documentation provided by the USCG.
   •	   Reviewed documentation, meeting notes, and e-mails from Region 6, OSWER, and
        ORD, including the Joint Directive and Addenda from EPA and the USCG, to understand
        the flow of communication regarding the surface and subsurface use of dispersants.
   •	   Attended a National Science Foundation Dispersant Workshop and a Clean Gulf
        Conference to gain insight into the oil spill response industry and the role that dispersants
        have during a response.
   •	   Conducted research on dispersants, including dispersant testing protocols and stockpiles.
   •	   Interviewed dispersant manufacturers to determine availability and production capacity
        of their products and whether responders considered their products during the spill.

In May 2010, President Obama established the National Commission on the BP Deepwater
Horizon Oil Spill and Offshore Drilling through Executive Order 13543. The commission
examined the relevant facts and circumstances concerning the root causes of the Deepwater
Horizon explosion, fire, and spill and options to mitigate the impact of future spills. We reviewed
staff working papers and the final report, issued to the President in January 2011, to assess the
Commission’s review and relevance on our two objectives.

The OIG Office of Counsel addressed components of the Hotline complaint alleging that the
EPA Administrator and employees committed perjury. Office of Counsel reviewed testimony by
EPA senior officials to determine whether evidence demonstrated that perjury existed. Appendix
B summarizes Office of Counsel’s perjury review results.




11-P-0534                                                                                         25
                                                                                     Appendix B

         Allegation of Perjury by Senior EPA Officials
                 in Congressional Testimony

We received a Hotline complaint on July 25, 2010, asserting, among other matters, that EPA was
covering up the effects of the Corexit dispersant. The Hotline referred to claims by an EPA
employee that Administrator Jackson perjured herself in testimony before Senator Mikulski on
July 15, 2010, by making false statements that Gulf air and water are safe. Our Office of Counsel
reviewed allegations concerning perjury and did not address the cover-up allegation. In its
response to our draft report, the Agency denied any cover-up and said that it took aggressive
steps to affirmatively disclose data regarding dispersant use. We noted the Agency’s response on
this point in chapter 1 of our report under “Noteworthy Achievements.”

Even though the perjury allegation only identified the testimony given by the Administrator on
July 15, 2010, our Office of Counsel reviewed nine sworn statements (including that given by
the Administrator on July 15, 2010), and related responses to “Questions for the Record,”
provided by senior EPA officials to Congress during the response. To determine whether any
such evidence of perjury existed, our Office of Counsel relied on the legal definition of perjury
and the following three required elements of a perjury offense:

   1.	 The first element is that the party must be under oath during their testimony, declaration,
       or certification.
   2.	 The second element is that the party must have made a false statement.
   3.	 The third element is proof of specific intent, that is, that the party made the false
       statement with knowledge of its falsity, rather than because of confusion, mistake or
       faulty memory. The false statement must be material to the proceedings. A false
       statement is material if it has “a natural tendency to influence, or is capable of
       influencing, the decision of the decision-making body to which it was addressed.”

The review did not find evidence supporting the elements of perjury. As none of the testimony
reviewed demonstrated any evidence that tended to indicate that senior EPA officials committed
perjury, the OIG did not make any recommendations to EPA on allegations of perjury raised in
the Hotline complaint.




11-P-0534                                                                                           26
                                                                                      Appendix C

                 OSWER’s Response to Draft Report
                                           June 30, 2011

MEMORANDUM

SUBJECT:       Environmental Protection Agency’s (EPA) Response to OIG’s Draft Report:
               “Revisions Needed to National Contingency Plan Based on Deepwater Horizon
               Oil Spill,” Project No. OA-FY10-0221

FROM           Mathy Stanislaus
               Assistant Administrator

TO:            Melissa M. Heist
               Assistant Inspector General for Audit

We appreciate the opportunity to comment on the Office of Inspector General (OIG) draft audit
report: “Revisions Needed to National Contingency Plan Based on Deepwater Horizon Oil Spill”
(Project No. OA-FY10-0221), dated May 24, 2011.

The Deepwater Horizon (DWH) Oil Spill was an unprecedented event requiring an extraordinary
response. Throughout the course of the spill and for a time following the capping of the well,
EPA collected, analyzed and posted data on the Agency’s website for over 5,000 air, waste,
sediment, and water samples; developed and implemented policies associated with the
unanticipated use of dispersants necessitated by this event; conducted scientific testing in
expedient timeframes; and demonstrated proactive efforts to improve operations. Although the
report recognizes many of the Agency’s accomplishments and we generally agree with the
recommendations, there are portions requiring clarification, and we modified the fifth and
seventh recommendations.

The report does not accurately delineate the roles of EPA and the U.S. Coast Guard (USCG) in
the DWH response. Under the National Contingency Plan (NCP), the USCG is the lead agency
in response to coastal oil spills. EPA is the lead agency in response to inland oil spills. In this
event, EPA supported the USCG and worked with federal partners to ensure timely and
responsible decisions. In this regard, the statement that "EPA was not prepared for quantity and
duration of dispersant use" (pp 11 and 13) should be clarified to avoid the implication that the
support EPA provided to the USCG was inadequate. EPA acknowledges that the quantity and
duration of dispersant use were unprecedented during the DWH Spill of National Significance
(SONS) event.

EPA mobilized quickly and efficiently in support of the federal spill response. Numerous
activities demonstrate EPA’s contributions, including deployment of personnel and equipment
into the field, enhanced monitoring activities, daily public data posting, collaboration and
cooperation with federal partners, involvement and expertise of EPA’s research community to


11-P-0534                                                                                         27
support decision making with sound science, development of waste management strategies and
incorporation of environmental justice concerns into any and all decision-making. Throughout
the course of the spill, EPA conducted this work at the highest level of scientific integrity, while
adapting and responding rapidly to ever-changing conditions and challenges of a crisis.

Our specific comments (provided in the Attachment) address concerns that require attention and
consideration. Should you have any questions, please contact Dana Tulis in the Office of
Emergency Management at (202) 564-8600. We appreciate your efforts and your incorporation
of our comments as you develop the final report.

This transmittal covers responses to recommendations regarding OSWER. Assistant
Administrator Paul Anastas has indicated that he will respond separately regarding
recommendations applicable to ORD.

Attachment

cc:      Paul Anastas

                                           ATTACHMENT

Specific comments are detailed below by section and chapter:

“At a Glance”

      1.	 “… EPA did not proceed with rulemaking before the Deepwater Horizon oil spill
          occurred because of competing priorities and changes in management. If EPA had
          updated Subpart J, more reliable efficacy data could have been readily available during
          the oil spill.” Although this is true, only three of the eight dispersant products tested by
          EPA for effectiveness using the preferred Baffled Flask Test would pass proposed
          efficacy criteria. One of the three is the dispersant used in the spill. Consequently, even
          with this additional information, the dispersant used in this spill would likely not have
          changed. Separately, the lessons learned from DWH have informed an on-going
          examination of Subpart J.

      2.	 “EPA increased its involvement because (a) it was not prepared for the amount of the
          dispersant use, and (b) additional clarity was needed on roles and responsibilities in
          responding to a Spill of National Significance. EPA’s increased involvement created
          confusion as to who at EPA led response efforts for dispersant use.” EPA increased its
          involvement not because it wasn’t prepared for the amount of dispersant use but because
          the amount of dispersant use was unprecedented. EPA has decision-making authority
          under Subpart J of the NCP. The EPA representative to the Regional Response Team
          (RRT) must concur on any pre-authorization for the use of chemical agents (such as
          dispersants, surface washing agents, surface collecting agents, bioremediation agents, and
          miscellaneous oil spill agents) for any oil spill. The EPA representative to the RRT must
          also concur on the use of chemical agents for spill situations not addressed by pre­




11-P-0534                                                                                           28
      authorization plans. During the Deepwater Horizon spill, EPA was consulted and
      responded in an expeditious manner.

Chapter 1

   1.	 Page 2, “For a Spill of National Significance, Subpart D of the NCP states that USCG
       [United States Coast Guard] and EPA can name a National Incident Commander to
       assume the role of OSC for spills occurring in coastal and inland zones, respectively.”
       The statement does not fully reflect 40CFR300.323. The USCG appoints the FOSC in
       the coastal zone and EPA appoints the FOSC in the inland zone. The "National Incident
       Commander" title is used in 40CFR300.323 only for the coastal zone.

   2.	 Page 4, “The spill lasted 87 days and spilled an estimated 4.9 million barrels of oil,
       making it the largest marine oil spill in U.S. history.” OIG should note that investigation
       into the number of barrels spilled is ongoing.

Chapter 2

   1.	 Page 1, “The BFT [Baffled Flask Test] has proved more reproducible, and if EPA had
       updated Subpart J to include it as the standard testing protocol, more reliable efficacy
       data would have been readily available at the time of the Deepwater Horizon oil spill.”
       As noted above, it is true more reliable efficacy data would have been available at the
       time of the spill. But test results shows that this data may not have made any difference
       in the dispersant used.

   2.	 Table 2, “Dispersant Efficacy Ranking Using SFT [Swirling Flask Test] and BFT
       [Baffled Flask Test]” may be misleading. The efficacy test data in Column 1 is an
       average of two oils using the SFT while the data in Columns 2 and 3 is for only one oil
       using the BFT. The underlying data confirms that the dispersant used compares well
       with all those available at the time of the spill.

Chapter 3

   1.	 Page 1, “We found that responders to the Deepwater Horizon oil spill could have used
       other dispersants in the response, but not within the window of time afforded by
       Addendum 2 to the pertinent Joint Directive. Further, we found that EPA increased its
       involvement in the Deepwater Horizon oil spill response beyond the role envisioned for
       the Agency in the NCP for deep water spills, due primarily to USCG’s request given
       concerns surrounding the use of dispersants and subsea application.” Choice of
       dispersants was initially vested in the USCG FOSC. In exercising its concurrence via the
       Joint Directive, EPA reviewed available information and required additional toxicity
       testing. EPA increased its involvement given the concerns surrounding the use of
       dispersants but its role was entirely consistent with the NCP. Prior to the Deepwater
       Horizon oil spill the US had never used dispersant subsea or in such quantities. Finally,
       as noted above, the EPA representative to the RRT must concur on any pre-authorization




11-P-0534                                                                                        29
      for the use of chemical agents on any oil spill or on the use of chemical agents for spill
      situations not addressed by pre-authorization plans.

        See Appendix D, Note 1, for OIG Response.

   2.	 Page 11, ‘EPA was not prepared for the amount and length of dispersant use.” The
       magnitudes of oil spilled and dispersant used were unprecedented. However, this should
       not imply that EPA’s support was inadequate.

   3.	 Page 12, “Three of the five dispersant manufacturers contacted believed they wasted their
       time in responding to various requests for information, that responders never really
       considered their products, and that responders did not capture their production
       capabilities.” EPA is sympathetic with the manufacturer’s concerns. At the same time,
       as noted above, USCG had the lead for dispersant choice. EPA worked during the spill to
       be as transparent and open as possible regarding the situation with manufacturers under
       unusual circumstances and the challenges associated with potentially interrupting the spill
       response to change products along with whether sufficient quantity could be provided.
       EPA was not able to obtain consistent information regarding production capacities from
       some of the manufacturers.

   4.	 Page 13, “Improved contingency planning using available information could have better
       prepared EPA to support USCG’s response to the spill.” As previously stated, the
       Deepwater Horizon Oil Spill was an unprecedented event. However, this should not
       imply that EPA’s support to the USCG was inadequate.

   5.	 Page 14, “Lessons learned from Spill of National Significance exercises in 2002 stating
       that pre-authorization plans should address potential shortfalls of dispersant supplies
       and equipment. Hurricanes Katrina and Rita in 2004 and 2005, which collectively
       destroyed 113 oil platforms, 70 vessels, and nearly 130 oil and natural gas pipelines, and
       ravaged the Gulf Coast with major impacts to offshore infrastructure and operations.”
       These statements need clarification. They seem to suggest that dispersants were involved
       in the exercises and hurricane responses from which EPA could have learned and been
       better prepared. This is not the case. Although it is true pre-authorization plans should
       address shortfalls of dispersant supplies and equipment, the exercises and hurricanes did
       not involve or contemplate the use of dispersants to the extent as in the BP Spill. Note
       that EPA and USCG did update the area contingency plan (ACP) in spring of 2010. This
       update was completed in the spring of 2010 despite the responses to Hurricanes Katrina,
       Rita, Gustav, and Ike.

        See Appendix D, Note 2, for OIG Response.

   6.	 Page 14, “The Ixtoc I spill in the Gulf of Mexico in 1979 released 3.3 million barrels of
       oil and lasted over 10 months. The Region 6 RRT could have used knowledge gained
       from this spill to update its Regional Integrated Contingency Plan to better address
       worse-case discharges and spill duration.” The Ixtoc Oil Spill in 1979 occurred before
       OPA existed and before the ACP was developed. Thus, its lessons were available before



11-P-0534                                                                                          30
      the ACP was drafted and we question the record support for the conclusion that the ACP
      needed updating to reflect it.

        See Appendix D, Note 3, for OIG Response.

   7.	 Page 15, “An EPA Region 6 Division Director said he did not believe EPA could have
       anticipated a spill of this magnitude. However, more detailed and updated contingency
       planning using available information could have better prepared EPA and others to
       respond to the spill. Future planning should consider the Deepwater Horizon scenario
       and address worst case discharges, lessons learned from Spill of National Significance
       exercises, and industry trends.” In context, it seems the Region 6 Division Director was
       speaking directly to the use of dispersants under the pre-approval plan and the inability of
       the USCG and the RP to control the release. EPA fulfilled its obligations as a co-chair of
       the Regional Response Team (RRT), and exercised its concurrence on the use of a
       dispersant based on the dispersants available. The dispersant pre-approval plan was not
       anticipated for long-term use, rather pre-approval was developed to assure that the FOSC
       and/or the RP has appropriate tools for the immediate response to a spill. Because of this,
       EPA increased its involvement in surface dispersant decisions during the Deepwater
       Horizon oil spill and instituted procedures to monitor for effects associated with the sub­
       surface application of dispersants. Region 6 is working within the Region 6 RRT to
       revisit the conditions associated with dispersant use under the Pre-Authorization Plan.

   8.	 Page 16, “…the NCP does not provide guidance on the roles and responsibilities of the
       National Incident Commander and other high-level officials. As a result, involvement by
       senior EPA officials created confusion as to who made dispersant decisions.” All
       decisions regarding dispersants and involving senior officials were clearly and
       appropriately vetted thru the National Response Team (NRT) as well as the RRT.

   9.	 Page 16 Under the NCP, for spills occurring in coastal zones, EPA is not given any
       decision-making authority, but EPA is responsible for planning prior to a spill and
       supporting the USCG during a response. The NCP states that for a Spill of National
       Significance in the coastal zone, USCG may name a National Incident Commander who
       assumes the role of the OSC in communicating with affected parties and coordinating
       resources at the national level. The NCP further states that coordination will involve the
       NRT, RRTs, and others as appropriate. However, the NCP does not address how high
       level officials other than the National Incident Commander can and should participate in
       such a response.” EPA does have decision-making authority under Subpart J of the
       NCP. The EPA representative to the RRT must concur on any pre-authorization for the
       use of chemical agents (such as dispersants, surface washing agents, surface collecting
       agents, bioremediation agents, and miscellaneous oil spill agents) for any oil spill. The
       EPA representative to the RRT must also concur on the use of chemical agents for spill
       situations not addressed by preauthorization plans. Finally, 40CFR300.323(b) addresses
       the role of EPA senior officials in responding to a Spill of National Significance which
       provides EPA a concurrence role; 40 CFR 300.323(b) provides that the Administrator
       may name a senior Agency official to assist in strategic coordination.




11-P-0534                                                                                       31
        10. Page 16. 	“It was unclear in our review what responders based the 15,000-gallon
            limit upon, but the Addendum sought to limit dispersant use and require more
            documentation because of concerns about ongoing dispersant applications at such
            large volumes.” The gallon limit was based on a 75% reduction in the total volume
            of dispersant used.

        11. Page 17,“Rather than EPA’s involvement occurring though the RRT and NRT as
            would happen in a typical response under the NCP, senior EPA officials became
            involved in daily surface dispersant decisions….Key staff in Region 6, including
            EPA’s representative to the Region 6 RRT and staff involved in the response, said
            they did not have the authority to approve dispersant applications.” The text should
            go on to point that out the RRT representative was heavily involved in the decision-
            making process, and that the decision-making process included the RRT and the
            NRT members. Senior Agency officials in Area Command, in consultation with
            EPA’s representatives in the Incident Command, gave concurrence to the FOSC.

        12. Page 17, “The concurrence process in place for surface dispersants inherently
            created delays as EPA elevated decisions to the OSWER Assistant Administrator
            and, at times, to the Administrator.” We are unclear on the support in the record
            that delays occurred or were inherent given the frequent and ready communication
            within the Agency. Timely decisions were made given the magnitude of dispersant
            use.

         See Appendix D, Note 4, for OIG Response.

        13. Page 18,“OSWER agrees that the NCP needs additional clarity on the roles and
            responsibilities of various agencies, as well as coordination and communication, for
            responding to a Spill of National Significance.” The statement needs to be clarified
            to, “OSWER supports clarification of roles for SONS in NRT guidance. Further
            evaluation of changes to the NCP is on-going.”

        14. Page 18, “EPA increased its involvement in the Deepwater Horizon oil spill over the
            role envisioned for the Agency in the NCP for deepwater spills.” EPA increased its
            involvement because the amount of dispersant used and the way in which it was
            applied (subsea) was unprecedented. EPA does not view this involvement as outside
            the role envisioned by the NCP for deepwater spills since, as stated above, EPA must
            concur on the use of dispersants in all spills.

Recommendations

       As stated earlier, EPA generally agrees with most of OIG’s recommendations. Work is
already under way to address most of the recommendations. However, EPA needs to modify
recommendation 5 and 7, as noted below, to agree with these recommendations as well.

        For recommendation 5, EPA has developed training on roles and responsibilities for
large scale events. The NRT is also addressing lessons learned. As such, we propose



11-P-0534                                                                                     32
revising recommendation 5 to state, “Develop training for a Spill of National Significance
event that clarifies roles and responsibilities for high-level agency officials. Review the
response and work with federal partners to address lessons learned.”

For recommendation 7, we want to clarify that the proposed rule may ask for comment on the
manufacturer being responsible for tracking production capacities since this would not be an
EPA responsibility.




11-P-0534                                                                                      33
                                                                                    Appendix D

              OIG Evaluation of OSWER’s Response
General Comments

OSWER generally agreed with our report recommendations. We revised our report text as
appropriate based on OSWER’s response to our draft report, most notably to note the
unprecedented nature of the Deepwater Horizon oil spill and to clarify that we did not intend to
imply that EPA’s support to the USCG was inadequate or that decisions were inappropriate or
inconsistent with the NCP. The following points pertain to those remarks in OSWER’s response
that required OIG rebuttal based on facts obtained through our review.

Note 1 – Response to Chapter 3 Comment 1

We changed our final report to read, “While we agree that EPA’s Administrator retains delegated
authority, we found that EPA’s involvement of senior Agency officials, in addition to the RRT
representative, created confusion on roles and responsibilities. EPA’s involvement in dispersant
decisions was primarily due to USCG’s request given concerns surrounding the use of
dispersants and subsea application.” We understand that EPA felt it necessary to structure this
concurrence process in light of the unprecedented nature of the spill; however, the EPA
representative to the RRT stated that they did not have the decision making authority within
EPA. Applying lessons learned from this response would help clarify roles and responsibilities of
senior Agency officials alongside those of responders identified in the NCP (e.g., RRT
representatives).

Note 2 – Response to Chapter 3 Comment 5

We added text to clarify these statements. Our three bulleted examples meant to demonstrate
events that should trigger updates to contingency plans, regardless of whether or not dispersants
were used. We agree with OSWER that dispersants were not used in the 2002 Gulf of Mexico
Spill of National Significance exercise, but the lessons learned document from the exercise
considers the use of dispersants a national issue and assigned EPA and the USCG to address the
shortfalls of dispersants. Additionally, Hurricanes Katrina and Rita caused a great deal of
damage in the Gulf of Mexico to oil facilities, yet deepwater contingency plans were not updated
to account for simultaneous events and/or the extensive damage that they caused.

Note 3 – Response to Chapter 3 Comment 6

In addition to spilling 3.3 million barrels of oil and lasting over 10 months, between 1 and
2.5 million gallons of dispersants were applied in response to the Ixtoc I spill. Even though this
spill occurred prior to OPA and the Area Contingency Plan, the Ixtoc I spill duration and amount
of dispersants was not considered when drafting either of these documents. We understand that
the Deepwater Horizon oil spill was unprecedented in many ways, yet the historic Ixtoc I spill
could have been taken into consideration when developing planning documents.



11-P-0534                                                                                       34
Note 4 – Response to Chapter 3 Comment 12

As OSWER noted in its chapter 3 comment 7, pre-approval was developed to assure that the
FOSC and/or the responsible party has appropriate tools for immediate response to a spill. We
noted that the concurrence process developed during the response—wherein EPA escalated
decisions to senior Agency officials instead of the RRT representative—created delays. We
observed some examples where it took several hours for some dispersant application decisions
and noted that these decisions could have been more immediate had EPA’s RRT representative
been able to make decisions in real time. We understand that this was an unprecedented spill and
are not in a position to say decisions were “untimely” given the magnitude of the response. We
recognize the value of senior management's decisionmaking and taking responsibility for those
decisions. Nevertheless, escalating decisions up the command chain creates delays over
decisions made instantly by the RRT representative.




11-P-0534                                                                                     35
                                                                                      Appendix E

                    ORD’s Response to Draft Report
                                        June 30, 2011

MEMORANDUM

Subject:       OIG’s Draft Report: “Revisions Needed to National Contingency Plan Based on
               Deepwater Horizon Oil Spill,” Project No. OA-FY10-0221

From:          Paul T. Anastas, PhD
               Assistant Administrator for Research and Development

To:            Melissa M. Heist
               Assistant Inspector General for Audit

       We have reviewed the Office of Inspector General (OIG) draft audit report: “Revisions
Needed to National Contingency Plan Based on Deepwater Horizon Oil Spill” (Project No. OA­
FY10-0221), dated May 24, 2011. While we are aware that the Office of Solid Waste and
Emergency Response (OSWER) is providing a more in-depth response articulating clarifications
and concerns with some of the recommendations and findings, this letter is to state ORD’s
concurrence with the OIG's recommendation to ORD and have already made significant progress
toward that end.

       The recommendation to “Develop a research plan to address gaps on long-term and
environmental effects of dispersants,” is one we have already begun to address. We have
developed a longer-term research strategy to address gaps specifically related to the health and
environmental effects of dispersants, as well as addressing other oil spill-related research needs.
Our strategy has been reviewed by the EPA Science Advisory Board and we anticipate
publication in Fall 2011.

       Our goal is to support the Agency’s mission and decision-making through sound science.
We appreciate the review by OIG and the opportunity to comment on this report as it pertains to
EPA’s research program. Should you have any questions, please contact Cindy Sonich-Mullin,
National Homeland Security Research Center, ORD at (513) 569-7923 or Norman Adkins,
Office of Resources Management and Administration at (919) 541-0872.




11-P-0534                                                                                         36
                                                                            Appendix F

                                   Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Research and Development
Regional Administrator, Region 6
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Regional Operations
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Audit Followup Coordinator, Office of Research and Development
Audit Followup Coordinator, Region 6
Director, Office of External Affairs, Region 6




11-P-0534                                                                           37
